                                  U.S. SMAll BUSINESS ADMINISTRATION 

                                      OFFICE OF INSPECTOR GENERAL 

                                        WASHINGTON,     D.C. 20416 



                                                                                ADVISORY MEMORANDUM
                                                                                        REPORT No. 12-09
DATE:             March 1, 2012

To: 	             Ann Bradbury
                  Acting Associate Administrator for Small Business Development Centers

SUBJECT: 	        Independent Review of the SBA's Accounting of FY 2011 Drug Control Funds and
                  Performance Summary Report

This report presents the results of our review of the Small Business Administration's (SBA) Accounting of
Drug Control Funds and Performance Summary Report for the year ended September 30, 2011. As
directed by the Office of National Drug Control Policy (ONDCP) Circular, Drug Control Accounting,'
agencies are required annually to provide a detailed accounting of all funds expended on National Drug
Control Program activities and the results associated with those activities. However, when drug-related
obligations are less than $50 million and a detailed accounting would constitute an unreasonable
burden, ONDCP's guidance permits agencies to submit an alternative report, as long as it is accompanied
byAgency and Office of Inspector General statements that full compliance with the circular would
constitute an unreasonable burden.

Because the SBA's Fiscal Year (FY) 2011 drug-related obligations were less than $50 million, the SBA
submitted an alternative report for FY 2011. We (1) assessed whether providing a detailed accounting
of funds expended on National Drug Control Program activities would constitute an unreasonable
burden, and (2) reviewed the SBA's report and related management assertions to determine the
reliability of those assertions made in the SBA's Accounting of FY 2011 Drug Control Funds and
Performance Summary Report.

We reviewed the SBA's FY 2011 accounting entries for the Drug-Free Workplace Program made by the
Office of the Chief Financial Officer, and grantee self-reported performance data used to support the
SBA's Accounting of FY 2011 Drug Control Funds and Performance Summary Report. We wish to note
that the FY 2011 performance data reported by the SBA is based on information submitted by grantees
that was not verified by the SBA to determine whether it was accurate, complete, and unbiased. While
the SBA's management is responsible for the preparation of its report, related disclosures, and the
assertions, the SBA properly disclosed that it relied on the honesty and integrity of grantees to ensure
that performance data was accurate, complete, and unbiased in presentation and substance.

We conducted our review in accordance with attestation standards established by the American
Institute of Certified Public Accountants, and applicable standards contained in Government Auditing
Standards, issued by the Comptroller General of the United States. Because a review is substantially less
in scope than an examination, and does not provide an adequate basis from which to express an opinion




1   dated May 1, 2007

                                                    1
on the SBA's Accounting of FY 2011 Drug Control Funds and Performance Summary Report, accordingly,
we do not express such an opinion.

Based on our review, we believe that full compliance with the ONDCP circular would constitute an
unreasonable burden for the SBA. Nothing came to our attention that caused us to believe that the
SBA's alternative report for the year ended September 30, 2011 is not presented, in all material
respects, in conformity with ONDCP's circular, or that management's assertions are not fairly stated, in
all material respects, based on the criteria set forth in ONDCP's Circular, Drug Control Accounting.

A copy ofthe SBA's Accounting of FY 2011 Drug Control Funds and Performance Summary Report is
attached. We note that the SBA did not request FY 2012 funds to administer this program because it
overlapped with other forms of similar assistance and the SBA has proposed the elimination of this
program. Should you or your staff have any questions, please contact Jeffrey R. Brindle, Director,
Information Technology and Financial Management Group at (202) 205-7490.




                                                   ***




 ssistant Inspector General for Auditing

cc/enc: Jonathan I. Carver




                                                    2
                      U.S. SMALL BUSINESS ADMINISTRATION 

                              WASHINCTON,   D.C.   20416 





         February 1,2012

         Mr. Jon Rice 

         Associate Director for Perfonnance and Budget 

         Office of National Drug Control Policy 

         750 17th St., NW 

         5th Floor 

         Washington, D.C. 20503 


         Dear Mr. Rice:

         In accordance with the Office ofNational Drug Control Policy's
         Drug Control Accounting Circular, the Small Business
         Administration submits its Accounting ofFY 2011 Drug Control
         Funds and Performance Summary Report with the accompanying
         Office ofInspector General authentication.

         If you have any additional questions or comments, please call me directly.

         Sincerely yours,




n/!~!&r~cr
6   V'   Acting Director, Office of Small Business Development Centers

         Enclosure
I. DRUG METHODOLOGY

SBA is trying to increase the positive impact of SBA assistance upon the nmnber and
success ofsmall business start-ups; maximize the sustainability and growth ofexisting
small businesses assisted by the SBA; and significantly increase successful small
business ownership within the segments of society facing special competitive opportunity
gaps. SBA's Office of Small Business Development Centers awards grants to eligible
intermediaries to provide fmancial and teclmical assistance to small businesses seeking to
establish Drug Free Workplace Programs (DFWP). The grantees are expected to educate
working parents on how keep their children drug free. A part of the program, the SBA
has also awarded grants to Small Business Development Centers to provide information
and assistance to small businesses with respect to establishing a DFWP.

An SBA DFWP grantee schedules events for small businesses to receive training and
education regarding the DFWP. A data record is recorded when a small business signs
up for the education/training whether by phone, in-person, or via computer. Data is
reported quarterly to the SBA as outcomes.

The drug methodology has not changed since the inception of the program.

II. FY 2011 DRUG CONTROL OBLIGATION DATA

                                                                   FY2011             FY2012
                                                                   FinalBA             Enacted
         Function

         Prevention and Education
           DFWPGrants                                              $997,000

         Drug Resources By Decision Unit

         Total FTEs (direct only)                                           o                   o
         Information

         Total Agency Budger                                       $668, 100M         $78S,204M
         Drug Percentage                                                  0%                0%




1 SBA identified this program as an example of programs overlapping with other forms ofsimilar assistance and
RfOPOsed that it be eliminated.
  Does not include Office of Disaster Assistance Program or the Office of the Inspector General.

                                                        2
      FY 2011 DFWP Grant Awards

      ~RANTEE      NAME                         PO DATE         PO AMOUNT

       Workers Assistance Program                09/23/11           $60,000.00
       Drug Free Idaho                           09/23/11        . $186,576.00
       River Region Human Services               09/06/11          $250,000.00
       Premier Integrity Solutions               09/23/11          $250,000.00
       Peer Assistance Services                  08/03/11          $250,000.00
                                         Tota                      $996,576.00

III. PERFORMANCE INFORMATION

    Performance Indicator 1: Number of Small Businesses Educated

    FY2008         FY2009          FY2010           FY2011       FY2011           FY2012
     Actual         Actual          Actual           Goal         Actual           Goal
     2,280           1,550           1,332           1,500          866             1,500

 This performance indicator reflects the number of small businesses that were educated by a
 DFWP grantee. A primary purpose of the program is to educate as many small businesses as
 possible to make them aware of the benefits ofimplementing a DFWP for their business.

    Performance Indicator 2: Number ofDFWPs Implemented

    FY2008          FY2009           FY2010         FY2011        FY2011          FY2012
     Actual          Actual           Actual         Target        Actual          Target
      363             375              465            166           414             165

 This performance indicator reflects the number of small businesses that implemented a whole
 or partial DFWP. Another purpose of this program is to encourage as many small businesses
 as possible to implement a DFWP for their business.

 In 2007, SBA started collecting and reporting outcome information on the following metrics
 from businesses that implemented a DFWP:




 If a business implements a DFWP, it is believed that there will be a decrease in absenteeism,
 tardiness, workplace accidents, employee turnover, damaged or stolen property and insurance
 premiums. It is also believed that employee productivity and morale will increase. The

                                                3
program outcomes are collected directly from businesses who implemented a DFWP. The
outcomes are reported by grantees and Small Business Development Centers and input to
SBA's web-based database for the DFWP.

Since 2007 small businesses who implemented a DFWP have reported decreases in
absenteeism, tardiness, workplace accidents, employee turnover, damaged or stolen property,
and insurance premiums. Small businesses have also reported an increase in employee
productivity and morale. The SBA estimates its target goals for the DFWP based on the
number of grantees and whether previous goals were reached. The SBA has no recourse to
verifY whether the outcome data is correct. It places great emphasis on the honesty and
integrityofthe DFWP grantees to ensure performance data for this measure are accurate,
complete, and unbiased in presentation and substance.

IV. MANAGEMENT'S ASSERTIONS

(1) Performance reporting system is appropriate and applied - The SBA has a system to
    capture performance information accurately and that system was properly applied to
    generate the performance data.

(2) Explanations for not meeting performance targets are reasonable - The goal for the
    number of Small Businesses Educated was not reached in FY 2011. It is difficult to
    predict the number of small businesses that will want education on a DFWP since there is
    no legally binding rule requiring them to do so.

(3) Methodology to establish performance targets Is reasonable and applied - The
    methodology described above to establish performance targets for the current year is
    reasonable given past performance and available resources.

(4) Adequate performance measures exist for aU significant drug control activities· The
    SBA has established at least one acceptable performance goal for each Drug Control
    Function in accordance with Section 6a(J)(A) ofONDCP Circular: Drug Control
    Accounting.




                                               4

